                  Audit of Control Environment and Overall
                        Accounting System Controls

                                   July 2004

                     Reference Number: 2004-1C-125




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                    DEPARTMENT OF THE TREASURY
                                        WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                            July 29, 2004


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                 Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

       SUBJECT:              Audit of Control Environment and Overall Accounting System
                             Controls (Audit #20041C0235)


       The Defense Contract Audit Agency (DCAA) examined the contractor Civil Group’s
       overall accounting system controls as of April 13, 2004. The purpose of the
       examination was to assure the contractor Civil Group’s system of accounting controls is
       adequate to provide costs that are reasonable, compliant with applicable laws and
       regulations, and subject to applicable financial control systems. The examination also
       evaluated the contractor Civil Group’s compliance with the system’s internal control
       requirements. The DCAA examined only the overall accounting system. Accordingly,
       the DCAA expresses no opinion on the contractor Civil Group’s system of internal
       controls taken as a whole.
       The DCAA opined that the overall accounting system and related internal control
       policies and procedures of the contractor’s Civil Group are inadequate in part. The
       DCAA cited four significant deficiencies in the contractor’s accounting system. These
       include lack of complete formal policies; noncompliance with Cost Accounting
       Standard 403, Allocation of Home Office Expenses to Segments; lack of policies for
       income, rebate, allowances, or miscellaneous credits; and noncompliance with
       subcontract costs of implementing the Subcontract Information Management System.
       The DCAA noted that these deficiencies could adversely affect the organization’s
       overall control environment and its ability to record, process, summarize, and report
       costs in a manner consistent with applicable Federal Government contract laws and
       regulations.
                                           2

The DCAA also indicated that it is the contractor’s policy to not provide the DCAA with
internal audit workpapers. Accordingly, the DCAA cannot verify the effectiveness of the
contractor’s management monitoring function. Additionally, the contractor’s policy does
not require the contractor’s Ethics Committee to report the results of internal
investigations to the Federal Government.
According to the DCAA, the contractor agrees and has already taken aggressive action
to correct these deficiencies. The DCAA will perform a follow-up of the contractor’s
corrective actions and provide a supplement to the audit upon receiving the contractor’s
support.
The information in this report should not be used for purposes other than those intended
without prior consultation with the Treasury Inspector General for Tax Administration
regarding their applicability.
If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
Director, at (202) 927-7077.


Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
